        If   you want to report or dIscuss
         confIdentIally any Instance of
mIsconduct, fraud, waste, abuse, or mIsmanagement,
                   please contact
        the   offIce   of Inspector   general.
                    telephone:
      the Inspector general’s hotlIne
                 1-800-303-9737
          the deaf or hard of hearIng,
            dIal frs (800) 877-8339
          and gIve the hotlIne number
               to the relay operator.
                       web:
  http://oIg.pbgc.gov/InvestIgatIon/detaIls.html
                    or wrIte:
    pensIon benefIt guaranty corporatIon
          offIce of Inspector general
                  po box 34177
         washIngton, dc 20043-4177
                              Pension Benefit Guaranty Corporation
                                                              Office of Inspector General
                                                 1200 K Street, NW, Washington, DC 20005-4026


										
The Board of Directors
Pension Benefit Guaranty Corporation

During the six month period covered by this report, the PBGC Office of Inspector General issued three
audit reports with 19 recommendations for improvement. We completed 17 investigations, resolved
58 complaints and had four cases accepted for prosecution by the various U.S. Attorney’s Offices. My
testimony before the Senate Special Committee on Aging described OIG’s work to address the former
PBGC Director’s involvement with procurement activities.

Working jointly with PBGC, we were able to close 22 prior audit recommendations. However,
information that came to our attention during the reporting period caused us to reopen 15 audit
recommendations that had been previously closed. These reopened recommendations also caused
us to reopen three previously closed audit reports, when we learned that corrective actions had been
incorrectly reported to OIG.

This semiannual report describes some of the positive actions that PBGC took between April 1 and
September 30, 2009.
  •	 The PBGC Board of Directors acted appropriately and promptly in response to our report detailing
     concerns with the actions of the former PBGC Director. Responding to a recommendation of
     the Acting Director, the Board directed PBGC to cancel three Strategic Partnership contracts for
     the management of PBGC assets totaling $2.5 billion and to develop a policy regarding proper
     separation of duties for the PBGC Director.
  •	 While final corrective actions have yet to be agreed on and completed, PBGC staff have worked
     hard to begin implementing many of the specific controls recommended in our evaluation of
     PBGC’s Securities Lending Program.
  •	 In response to our recommendations for strengthening the Corporation’s ability to address
     continuing information technology challenges, on September 29, 2009, the Acting Director
     announced a decision to assign the Chief Operating Officer and the General Counsel to assist
     the Chief Information Officer in developing a coordinated approach. Since that time, we have
     continued to work with management at all levels in an effort to achieve increased efficiency and
     effectiveness in PBGC’s IT infrastructure.   
Other important actions were initiated prior to the end of this reporting period but have yet to
be completed.  We appreciate the cooperation you, your staffs, and the PBGC management team
have provided to the OIG. We look forward to continuing this productive and professional working
relationship as we continue to help PBGC meet its important challenges.

Sincerely,




Rebecca Anne Batts
Inspector General
PBGC Office of inspector general
Table of Contents
Letter to the Board of Directors


Executive Summary  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
	      The Pension Benefit Guaranty Corporation
	      The Office of Inspector General

Management Challenges
OIG Efforts Focused on PBGC’s Investment Policies and Practices  . . . . . . . . . . 5
	      Report: Former Director’s Involvement in Contracting for Investment Services
	         Blurs Roles and Raises Fairness Issues
	      Investigation Opened in Response to Bipartisan Request
	      Testimony before Senate Special Committee on Aging
	      Observations on the Implementation of PBGC’s Investment Policy
	      Report: Evaluation of the PBGC’s Activities with Respect to Its Securities Lending
	         Program
	      Audit Follow-up - Securities Lending Program

Contract Audit Included Findings Similar to Those Reported in the Past . . . 11
	      Report: Zimmerman Associates, Inc. Agreed-Upon Procedures to Verify
	      Contract Personnel Qualifications

OIG Office of Investigations Addressed Wide Range of Issues . . . . . . . . . . . . . 12
	      Possession of Illicit Substance
	      Recovery of Improper Pension Payments
	      Allegations of Unauthorized Computer Access

Significant Audit Efforts are On-going  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
	      Annual Audit of PBGC’s Financial Statements
	      Assessment of PBGC Compliance with FISMA
	      IT Issues Will Impact PBGC’s Preparedness to Face Potential Influx of Pension Plans
	      Congressional Request: Evaluation of Benefits Paid to Minnesota Steelworker
	           Participants
	      Whistleblower Report: Actuarial Toolkit and the Safeguarding of
	           Personally-Identifiable Information
	      Contract Issues Ignored with Negative Consequences
	
PBGC Incorrectly Reported Taking Corrective Acts on Some Issues
	 Reported to OIG  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17




                                          Semiannual Report Of The Inspector General—SEPTEMBER 2009                                        iii
Other OIG Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  .20
	      Access to Information
	      Management Decisions

Other Office of Inspector General Activities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .21
	      Review of Proposed Statutory and Regulatory Changes
	      Congress Remains Concerned About Inspector General Independence
       Other Activities
	
Appendix . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .23
	      Cross-Reference to Reporting Requirements of the Inspector General Act
	      Summary of Audit and Investigative Activities
	      Results of Reports Issued
	      Summary of Reports Older Than 6 Months for Which Management
          Decision Has Not Been Achieved
	      Previously Reported Significant Recommendations for which Corrective
          Action Has Not Been Completed




                   IV                            PBGC Office of inspector general
Executive Summary
This Semiannual Report to Congress summarizes the activities and accomplishments
of the Pension Benefit Guaranty Corporation (PBGC) Office of Inspector General (OIG)
for the period April 1, 2009 through September 30, 2009. During this reporting
period, a primary focus of our work was in the financial area:

 •	 An audit that involved virtually all OIG audit staff dealing with PBGC’s
    implementation of its investment policy took a new direction when a
    whistleblower alleged that the former PBGC Director was inappropriately involved
    in procurement activities relating to investments. Our work resulted in a report
    finding that the former Director’s direct and active participation in contracting
    for investment services resulted in a lack of separation of duties and created the
    appearance that the procurement decisions were not fair and impartial. As a result
    of our report, PBGC’s Board of Directors terminated three contracts with Wall Street
    investment firms for the investment of $2.5 billion in PBGC’s assets. (see pages 6-7)
 •	 We also opened a criminal investigation of related issues in response to a
    bipartisan request. (see page 7)
 •	 Additionally, the Inspector General was called to testify before the Senate Special
    Committee on Aging about our work addressing the former Director’s actions. (see
    pages 7-8)
 •	 We evaluated PBGC’s activities with respect to the securities lending program,
    which forms a part of PBGC’s investment program. We reported about positive
    aspects of the program, such as the knowledge level of staff who monitor
    securities lending. We also described areas for improvement. For example, written
    policy and implementing procedures relating to securities lending were virtually
    non-existent. We also found that PBGC could not independently validate the
    earnings it received. (see pages 9-11)
 •	 Much of our effort was focused on the financial statement audit and associated
    work in the information technology (IT) area, including vulnerability testing and
    assessment of FISMA compliance. We did not issue reports on these topics within
    this reporting period; however, our work has confirmed the persistence of many
    substantial IT weaknesses that had been reported in prior years. (see pages 13-14)

In addition, we have two projects in process requested by Members of Congress:
  •	 Senator Kohl, Chairman of the Special Committee on Aging, asked us to evaluate
     PBGC’s readiness to address the potential influx of pension plans and their
     participants as a result of recent economic conditions. (see page 15)
 •	 Senators Klobuchar and Franken and Congressman Oberstar were concerned
    about benefit reductions for constituents who worked in the Minnesota taconite
    mines and asked us to evaluate PBGC’s actions in terminating and establishing the
    pension benefits. (see page 16)

Another focus was following up on corrective actions that had been incorrectly
reported to the OIG as completed. One area of concern was PBGC’s response to a


                          Semiannual Report Of The Inspector General—September 2009         1
     contractor’s security breach and disclosure of personally-identifiable information.
     Another area of concern was PBGC’s certification that certain audit recommendations
     had been effectively implemented through issuance of Standard Operating
     Procedures. Our review showed the procedures had not actually been implemented,
     despite management’s certification that the process were “in place and effective.”  
     (see pages 17-19)




2   PBGC Office of inspector general
Introduction
The Pension Benefit Guaranty Corporation
The Pension Benefit Guaranty Corporation (PBGC or the Corporation) was established
under Title IV of the Employee Retirement Income Security Act of 1974 (ERISA),
as amended (29 U.S.C. §§ 1301-1461), as a self-financing, wholly-owned Federal
government corporation to administer the pension insurance program. ERISA requires
that PBGC: (1) encourage the continuation and maintenance of voluntary private pension
plans, (2) provide for the timely and uninterrupted payment of pension benefits to
participants and beneficiaries, and (3) maintain premiums at the lowest level consistent
with carrying out PBGC’s obligations.

For about 44 million Americans, PBGC provides assurance that their retirement benefits
will be paid, up to a statutory limit. PBGC protects the pensions of participants in certain
defined benefit pension plans (i.e., plans that promise to pay definitely determinable
retirement benefits). Such defined benefit pension plans may be sponsored individually
or jointly by employers and unions. PBGC is now responsible for the pensions of about
1.3 million people.

During FY 2009, PBGC managed about $70 billion in assets and paid about $4.5 billion
in benefits to almost 744,000 retirees and beneficiaries. The Corporation reports having
sufficient liquidity to meet its obligations for a number of years, despite a cumulative
deficit of $21.9 billion from the single-employer and multiemployer programs. Neither
program at present has the resources to satisfy all of the benefit obligations already
incurred, much less future obligations likely to be assumed.

PBGC’s governance structure comprises the Board of Directors, their Board                          Effective oversight is
Representatives, a Presidentially-appointed Director, and Congressional oversight. Other           a critical element of
elements of governance include PBGC’s system of internal control, its clearly articulated
authority to act, and the policies and procedures under which PBGC operates. PBGC              corporate governance.
governance is complex and requires those who are charged with its oversight to view the
Corporation from a number of differing perspectives. Oversight by the PBGC Board, PBGC
management and the OIG is critical to effective corporate governance.  

The Office of Inspector General
Our Office of Inspector General (OIG) was created under the 1988 amendments to the
Inspector General Act of 1978. We provide an independent and objective voice that helps
the Congress, the Board of Directors, and PBGC protect the pension benefits of American
workers. Like all Offices of Inspector General, the PBGC OIG is charged with providing
leadership and recommending policies and activities designed to prevent and detect
fraud, waste, abuse, and mismanagement; conducting and supervising independent
audits and investigations; and recommending policies to promote sound economy,
efficiency, and effectiveness.




                             Semiannual Report Of The Inspector General—September 2009         3
                          To provide value, we focus our work on the challenges facing PBGC. We strive to
                          target the highest risk areas and emphasize timely reporting of results. We determine
                          what we will investigate and audit and how we will conduct those investigations and
     PBGC Board
                          audits. We determine our own priorities and have had our own independent legal
 Responded Promply        counsel since 1990. Our audit and investigative staff is competent and experienced,
                          with professional backgrounds in other Offices of Inspector General, independent
    to Our Interim
                          accounting firms, and federal criminal investigative agencies. We independently
       Report             respond to Congressional requests and initiate contact with Congress, as warranted.

                          The OIG is in full compliance with the Quality Standards for Federal Offices of Inspector
                          General, published by the President’s Council on Integrity and Efficiency (PCIE) and
      The OIG is          the Executive Council on Integrity and Efficiency (ECIE). Our audit work is performed
                          in compliance with Generally Accepted Government Auditing Standards, issued by
  organizationally        the Comptroller General of the United States and our investigations are performed in
  independent and         compliance with PCIE and ECIE Quality Standards for Investigations.

  reports to PBGC’s       The PBGC OIG is organizationally independent. The Inspector General reports
Board of Directors and    directly to the highest level of PBGC governance, the PBGC Board and to Congress. In
                          executing our independent oversight role, we perform a range of legally-mandated
      Congress.           work (e.g., the annual financial statement audit and the annual Federal Information
                          Security Management Act review) as well as a body of discretionary work.




                      4   PBGC Office of inspector general
Management Challenges
During this semiannual period, PBGC faced the financial turmoil affecting much of
the American investment community. The prospect of unprecedented numbers of
bankrupt pension plan sponsors and the terminations of their pension plans created
uncertainty, as did questions that arose as to whether certain U.S. automakers would go
into bankruptcy and whether PBGC would become responsible for automaker pension
plans with close to 1 million participants. Many companies across a wide range of
sectors – manufacturing, banking, health care, and retail – also suffered sharp declines
in investment and business profitability, thus creating additional challenges for PBGC
as well as for the defined benefit pension plans it insures. PBGC’s deficit reached $21.9
billion as of September 30, 2009. Nevertheless, PBGC states it has the resources to meet
its commitments to America’s retirees for many years to come.

Between April 1, 2009 and September 30, 2009, we issued three audit reports, initiated
15 investigations, issued 17 reports of investigation, and closed 58 complaints. A total
of four cases were accepted by United States Attorneys.  The results of our efforts this
period are detailed below.
                                                                                              Investment Policy
OIG Efforts Focused on PBGC’s Investment Policies and
Practices                                                                                     implementation work

The overarching goal of PBGC’s investment activities is to help ensure that the PBGC          included:
will be able to meet its obligations to the 1.3 million Americans who depend on it for        • Audit of former Director’s
their pension benefits. As of September 2009, PBGC’s total investments were valued
at $59.7 billion. PBGC invests trusteed pension funds to increase the likelihood that         procurement activities
the Corporation will be able to meet its long-term obligations. The PBGC currently has        • Testimony before Special
a multi-billion dollar shortfall, and faces the possibility that someday it will run out of
money.                                                                                        Committee on Aging

                                                                                              • A criminal investigation
In September 2008, our office initiated an audit to review PBGC’s implementation of
its February 2008 investment policy. The objectives of our audit were to identify the         of the former Director
strengths and weaknesses of PBGC’s approach to executing its investment policy and
to determine the effectiveness of PBGC’s plan to identify and mitigate key risks that
could affect investment performance or limit anticipated benefits. While performing
this work, we became aware of serious allegations about former PBGC Director Charles
E.F. Millard’s involvement in the procurement process used to select the investment
managers responsible for executing aspects of the new policy. As a result of our review
of the former Director’s activities, during this semiannual period, we:

  •	 Issued an audit report addressing the former Director’s involvement in contracting
     for investment services,
  •	 Initiated an investigation pursuant to a bi-partisan request from Senators Baucus
     and Grassley of the Senate Finance Committee and Senators Kennedy and Enzi of
     the Senate Committee on Health, Education, Labor and Pensions (HELP), and
  •	 Provided testimony before the Senate Special Committee on Aging.


                              Semiannual Report Of The Inspector General—September 2009        5
                             Audit Report Issued - Former Director’s Involvement in Contracting
                             for Investment Services Blurs Roles and Raises Fairness Issues
                             AUD-2009-5/PA-08-63-1
                              (http://oig.pbgc.gov/audit/2009/pdf/PA-08-63-1.pdf )

                             While conducting the audit of PBGC’s implementation of its new investment policy,
                             we received a whistleblower complaint that former PBGC Director Charles E.F. Millard
A whistleblower drew         was improperly involved in the procurement process used to select the investment
the OIG’s attention to       managers responsible for executing aspects of the policy. Of particular concern was
                             the Strategic Partnership procurement that would allocate about $2.5 billion to the
 the former Director’s       alternative investments of real estate and private equity and would generate potential
procurement activities.      fees of more than $100 million for the selected Strategic Partners.

                             We reported that the former PBGC Director inappropriately communicated with
                             bidders during the time when such contact was forbidden by PBGC policy and the
                             Federal Acquisition Regulation (FAR), thus raising serious questions about the integrity
                             of the procurement process for the Strategic Partnership contracts. Phone records and
                             emails show that the former Director was communicating directly with some bidders
                             at the same time that he was actively evaluating their Strategic Partnership proposals,
                             a clear violation of the prohibition on contact with potential offerors.

                             Further, the former Director took an unprecedented role in the procurement process,
                             to include serving on Technical Evaluation Panels (TEP) to formally assess some of
                             the same Wall Street firms with whom he was in frequent contact; at a minimum,
                             this violated the principle of separation of duties. Separation of duties is required for
                             effective management control and the lack of separation leaves PBGC vulnerable to
                             concerns of real or perceived bias. Due to the former Director’s frequent contact with
                             bidders, coupled with his participation in the procurement process, senior level staff
                             expressed doubts about the fairness of his decisions and the selection of winners for
                             the strategic partnership contracts. The former Director’s contact with bidders allowed
                             some, but not all, to have frequent and in-depth access to a key procurement decision-
                             maker. Further, the continuing contact provided an opportunity for some, but not all,
                             bidders to enhance the former Director’s level of confidence in their firms’ knowledge
                             and skills.

                             Finally, the post-award assistance he received from an executive of one of the winning
                             bidders raises serious ethical concerns. Our review of the former Director’s email
                             records disclosed extensive communication with an investment firm executive,
                             occurring after the award of a $700 million Strategic Partnership contract. Troubling
                             evidence included 29 emails between the investment firm senior official and the
                             former Director, assisting him in his search for employment. For example, the former
                             Director provided his resume, bio, and six news articles to the executive, who in turn
                             forwarded the materials to others in the financial community, including those with
                             whom the investment firm had a business relationship. Employment assistance
                             provided by the investment firm executive to the former Director included personal
                             meetings, strategic advice, introductions to potential employers, and help with
                             meeting arrangements.


                         6   PBGC Office of inspector general
The former Director was advised that his actions could cast doubt on the integrity of
the procurement process, but he did not heed these warnings. Because the former
Director’s subordinates were unable to prevent the activities described in our report,
and because internal guidance could be changed by a future Director, we determined
that it was unlikely that PBGC employees could take effective action to prevent similar
abuses by future Directors. Therefore, our recommendations were made to the PBGC
Board of Directors (Board), in recognition of their important oversight role of PBGC and
the PBGC Director.

The PBGC Board acted promptly and appropriately in response to our report,
directing the Acting PBGC Director to provide the Board with his recommendation
for continuing or cancelling the contracts. The Acting Director recommended that
the contracts be cancelled. By Board Resolution 2009-06, the Board directed PBGC
to cancel the three Strategic Partnership contracts and to develop a policy regarding
proper separation of duties for the PBGC Director, including appropriate boundaries
for procurement participation.

Investigation Opened in Response to Bipartisan Request                                           Congress asked OIG to

PBGC’s Senate oversight committees –the Senate Finance Committee and the Senate                  investigate the former
HELP Committee – were closely monitoring the progress of our work concerning the             Director’s contacts with
former Director’s procurement activities. On May 14, 2009, the day before issuance
of our audit report, Senators Kennedy and Enzi of the Senate HELP Committee and                    Wall Street firms.
Senators Baucus and Grassley of the Senate Finance Committee issued a joint letter
to our office requesting further investigation into the former Director’s later contacts
with executives at companies that were awarded Strategic Partnership contracts.
We agreed to do so. The following day, the four Senators wrote to the United States
Department of Justice asking them to open a criminal investigation into the former
Director’s actions. Since that time, our OIG investigators have been conducting this
investigation under the direction of the Office of Public Corruption of the United
States Attorney’s Office in the Southern District of New York.

Testimony before Senate Special Committee on Aging
(http://oig.pbgc.gov/reports/testimony/052009testimony.pdf )

The Inspector General testified before the Senate Special Committee on Aging on May
20, 2009, to highlight the results of our audit of the former Director’s involvement with
procurement activities. She explained that the former Director had assumed de facto
responsibility for key procurement actions, thus violating the principle of separation of
duties.

Further, the Inspector General testified that the former Director interacted with some,
but not all bidders, in a manner that failed to reflect integrity, fairness, and openness,
as required by the FAR and by government ethics regulations. For example, prior to the
issuance of the solicitation for bids, the former Director had a two-day email exchange
with a potential bidder who subsequently was awarded a Strategic Partnership
contract to manage $900 million in PBGC assets. The former Director and the company



                             Semiannual Report Of The Inspector General—September 2009       7
                         executive strategized about how to establish specific criteria for bidders that would
                         “winnow the field” and “eliminate [certain firms] from consideration.” This exchange of
                         emails was inconsistent with the former Director’s responsibility as set forth in the FAR,
   In testimony,         to ensure that government business was “conducted in a manner above reproach and
                         … with complete impartiality and with preferential treatment for none.”  
 Inspector General

told Congress about      The Inspector General emphasized the seriousness of our findings and
                         recommendations for the Board to determine whether the Strategic Partnership
 former Director’s       contracts should be cancelled and to develop policy to enforce proper separation of
serious misconduct.      duties for future directors, including restriction from serving on procurement technical
                         evaluation panels. She reported that the Board had agreed with our findings and
                         committed to taking action.

                         Finally, the Inspector General expressed gratitude for the role of a whistleblower in
                         alerting the OIG to the former Director’s inappropriate procurement activities. Those
                         who report suspected wrong-doing put the Corporation’s interest above their own
                         interest to be free from possible retaliation.

                         Observations on the Implementation of PBGC’s Investment Policy
                         (PA-08-63)

                         In addition to instructing the Corporation to cancel the Strategic Partnership contracts,
                         PBGC Board Resolution 2009-06 instructed PBGC to cease implementation of the
                         February 2008 investment policy. Since this decision rendered our ongoing review
                         moot, we discontinued our audit of the implementation of the policy. However, as
                         allowed by audit standards, we shared our observations with PBGC managers for their
                         use in transitioning to any future investment policy as approved by the Board.

                           •	 Transition Plan. We noted that PBGC initially began its transition to the new asset
                              allocations outlined in the February 2008 investment policy without preparing a
                              complete, formal, comprehensive, written transition plan to facilitate the prudent
                              implementation of the investment policy. In September 2008, PBGC provided
                              OIG a binder entitled “Compendium of Investment Program Transition Related
                              Documents.”  This Compendium included a transition bar chart and timeline, but
                              did not include such key elements as: a risk analysis, accountability measures
                              to monitor progress, documentation to support how decisions would be made
                              (e.g., who had what authority), or a delineation of roles and corresponding
                              responsibilities related to the transition. However, after our initial discussions
                              with the Corporation, PBGC’s Corporate Investments Department (CID) began
                              developing more detailed transition planning documents that included a
                              discussion of the challenges involved in such a large-dollar investment portfolio
                              transition.
                           •	 Risk Management. Once an organization initiates a portfolio transition, risk
                              management is a critical component of minimizing implementation shortfall.
                              However, at the inception of the transition process, PBGC had not documented
                              its procedures for the management of transition-related risks. PBGC completed
                              several key transition activities, such as the selection of three investment
                              management firms for Strategic Partnership contracts to manage $2.5 billion in

                     8   PBGC Office of inspector general
    PBGC assets, before risks and mitigating methods related to the transition were
    even documented. Nine months after the adoption of the new investment policy,
    PBGC provided OIG a document entitled “Transition Management: Risks and
    Mitigating Methods,” a 14-point risk matrix developed jointly by PBGC and one
    of its investment advisors. Developing the risk matrix is an important first step.
    However, PBGC should take steps to ensure that the mitigating actions are actually
    implemented as part of asset trading decisions. Further, PBGC should continue to
    identify additional risks and develop mitigations, as appropriate.

OIG Addressed PBGC’s Securities Lending Program

Securities lending is a trading technique in which an owner of securities lends a
portion of its stock portfolio to a borrower, such as a hedge fund, and receives cash in
return as collateral. As of September 30, 2008, the value of PBGC’s securities on loan
was $3.6 billion and PBGC had earned income from securities lending of $34.6 million.
Though the revenue earned from securities lending is only a small part of PBGC’s
investment strategy, our review highlighted areas that warrant PBGC’s additional                Securities lending,
consideration. After issuing our report and as part of our follow-up activities, we
provided comments to enhance the draft securities lending policy developed by                    a part of PBGC’s
PBGC.                                                                                          investment strategy,

Report Issued - Evaluation of the PBGC’s Activities With Respect                               has been perceived
to Its Securities Lending Program                                                                to be more risky
EVAL-2009-06/ FA-08-51
(http://oig.pbgc.gov/audit/2009/pdf/FA-08-51.pdf )                                             since the economic

                                                                                                    downturn.
Securities lending transactions are meant to provide a twofold benefit: the securities’
owner can make money by investing the cash collateral and can continue to benefit
from the loaned stock through its dividends and any appreciation in its value. This
practice has historically been considered a low risk means to obtain incremental
investment return. However, recent significant collateral and borrower defaults have
led to changes in this perception.

The OIG hired Independent Fiduciary Services (IFS) to evaluate PBGC’s securities
lending program activities at State Street Bank, in particular the adequacy of the
internal controls surrounding PBGC’s monitoring of State Street’s activities and the
securities lending contract; how the securities lending contract and agreement
compare to similar agreements in the industry; and whether the arrangement is
advantageous to PBGC. Our report identified programmatic strengths and weaknesses
and included recommendations for enhancements to the program.

The evaluation addressed several positive aspects of PBGC’s securities lending
program. For example, we reported that the agreements between PBGC and State
Street Bank were appropriately comprehensive and generally favorable to PBGC.
Further, we reported that the PBGC employees who monitor and manage the
securities lending program were knowledgeable and that State Street Bank processed
transactions in accordance with industry and contractual standards.


                              Semiannual Report Of The Inspector General—September 2009    9
                           Our report also described needed improvements to PBGC’s securities lending program.
                           We reported that written policy for the PBGC securities lending program was virtually
                           non-existent. At the time of our review, the PBGC Investment Policy stated merely
                           that “Securities lending is allowed” and provided no additional guidance.  We also
                           noted the absence of written guidance at all levels, from the highest level down, to
                           address important issues such as investment objectives, risk tolerance, measurement
                           standards, and requirements to periodically review and modify or reaffirm the policy.
                           Further, we found little documentation of the procedures used to implement, oversee,
                           and monitor the program against policy standards and benchmarks.

                           PBGC was unable to independently validate that its gross and net revenues earned
                           have been correctly calculated by State Street Bank. We attempted to re-calculate the
                           expected fees on a sample of loans and found that we were also unable to do so. For
                           loans outstanding for more than one day, some of the variables changed during the
                           course of the loan and State Street advised that the bank was unable to provide the
     PBGC should           data for the variables that had changed. We further noted that the pricing schedule for
document its securities    PBGC’s custody relationship with State Street Bank lacked clarity, as it disclosed only
                           the split ratio and the expected net revenue “after fees” to PBGC with no explanation of
   lending policies        how that amount was determined.
  and implementing
                           At the time of our review, PBGC was relying on the audited financial statements of
   procedures, and         the Quality A Fund and the absence of findings of erroneous calculations in the SAS
independently validate     70 audit for assurance that PBGC’s earnings were properly calculated. PBGC was not
                           alone in its decision to rely on State Street Bank’s internal controls for assurance that
     its earnings.         loan revenue is calculated correctly. Due to the difficulty of calculating loan revenue,
                           lenders frequently rely on the agent bank’s controls, without independent verification
                           of amounts earned. However, given PBGC’s status as the largest participant in the State
                           Street Bank’s Quality A Fund, with ownership of about 40 percent of the fund’s assets,
                           we concluded that PBGC should explore how State Street could provide additional
                           assurance on the correctness of its earnings by providing monthly revenue reports
                           that could be tied to the activity and returns of the fund. We also recommended, to
                           the extent that such information could be provided, that PBGC establish procedures
                           for contemporaneous verification of loan fees earned by PBGC. PBGC concurred with
                           our recommendation and agrees to explore with State Street ways to obtain greater
                           assurance regarding the accuracy of reported earnings.

                           With respect to the lack of policy, our report noted that the Board of Directors is
                           an important part of PBGC’s governance, and setting policy is the Board’s statutory
                           responsibility. Therefore, we recommended that the Board provide specific
                           guidance in its Investment Policy Statement and review more detailed internal
                           written guidelines prepared by PBGC that would establish the broad parameters
                           and objectives of the program. The balance of our recommendations were made to
                           strengthen both PBGC’s stewardship of entrusted pension assets and its contractual
                           relationship with its securities lending agent, State Street Bank. In responding to
                           the report, PBGC noted that securities lending is a small but important component
                           of PBGC’s overall investment program. Noting agreement with most of the report’s
                           findings, PBGC provided proposed corrective actions.


                      10   PBGC Office of inspector general
Audit Follow-up – Securities Lending Program

In response to one of our recommendations in our evaluation report on PBGC’s
Securities Lending program, PBGC’s Corporate Investments Department drafted a
proposed “Securities Lending Investment Policy” and requested the OIG’s comments
on the draft. As part of our routine audit follow-up and as permitted by audit
standards, we suggested enhancements to the draft policy that included clarifying
the objectives of the program, establishing parameters to assess performance, and
defining risk mitigation strategies.


Contract Audit Included Findings Similar to Those
Reported in the Past
Zimmerman Associates, Inc. Agreed-Upon Procedures to Verify
Contract Personnel Qualifications
AUD-2009-7/ CA-08-53
(http://oig.pbgc.gov/audit/2009/pdf/CA-08-53.pdf )

We hired an Independent Public Accountant (IPA) to perform agreed-upon procedures
to verify contract personnel qualifications of a PBGC contractor hired to provide
professional staff to manage and operate the Benefits Administration and Payment
Department (BAPD) Document Management Center. The contract was valued at $5.4
million for Fiscal Years ended September 30, 2006 and 2007. The contract became
effective September 30, 2005, with four option year periods.

The objective was to determine whether the contractor processes were adequate to
ensure that qualified personnel were assigned to the PBGC contract covering fiscal
years ended September 30, 2006 and 2007. The IPA found the contractor did not              PBGC agreed to require
always verify that assigned personnel met experience requirements specified in the             contractors to verify
contract because there was no contractual requirement to verify experience. This
finding is similar to others that we have reported in prior Semiannual Reports.                 their employees’

                                                                                           qualifications in labor-
We recommended to PBGC’s Contracting Officer that contracting officials be required
to implement internal controls and procedures to ensure that required experience                 hour contracts.
is verified and documented for all employees prior to assigning personnel to PBGC
contracts. PBGC concurred in principle with the recommendation and provided an
alternative corrective action in response to our recommendation. PBGC officials
committed to (1) alert the contractor to the issue for any future government work it
may perform; and (2) insert a clause in its future contracts, where minimum employee
qualifications are specified, establishing contractor’s responsibility to independently
verify employees’ education and experience and its responsibility to maintain records
of its verification actions.




                            Semiannual Report Of The Inspector General—September 2009     11
                              OIG Office of Investigations Addressed a Wide Range
                              of Issues
                              The Office of Investigations is currently working with the U.S. Attorney’s Offices in
  We are working on           Washington, DC and the Southern District of New York on prosecutions of four matters.

prosecutions with U.S.        Between April 1 and September 30, 2009, we closed 17 investigations. The following
                              three examples demonstrate the range of issues we investigated.
 Attorney’s Offices in

 Washington DC and            Possession of an Illicit Substance. The Office of Investigations investigated a
                              complaint involving possession of an illicit substance by a PBGC employee. Two PBGC
the Southern District of
                              employees standing in the lobby at 1200 K Street witnessed a PBGC employee drop
      New York.               a small plastic bag as he retrieved his identification badge from his pocket. The OIG
                              investigator used photographs from the lobby security cameras to identify the PBGC
                              employee who had dropped the bag. After being shown the suspected illicit substance
                              and still pictures printed from the security cameras, the employee admitted that he
                              had dropped a small bag of marijuana as he entered the building. The employee was
                              subsequently disciplined and placed on five days’ unpaid leave.

                              Recovery of Improper Pension Payments. Although a PBGC plan participant had died
                              in April 2007, his pension payments continued after his death. His girlfriend spent
                              the continuing payments and failed to notify PBGC of the participant’s death. After
                              receiving a declination to prosecute from both federal and state prosecutors, OIG
                              investigators assisted in a recovery effort that resulted in the girlfriend repaying the
                              PBGC approximately $10,000 in pension overpayments.

                              Allegations of Unauthorized Computer Access. The Office of Investigations received
                              an allegation that a PBGC employee had accessed, without authorization, the
                              computer assigned to a member of the Information Systems Security Office (ISSO)
                              team. According to the allegation, files created by a PBGC employee with widespread
                              system access were identified by the Information Systems Security Officer and
                              characterized as an incident of unauthorized access. In response to the allegation,
                              OIG criminal investigators conducted an electronic crimes investigation of the
                              affected user’s computer.  Additionally, OIG criminal investigators conducted a system
                              wide review of user accounts to identify additional unauthorized system accesses,
                              if any, involving the suspected offender. At the conclusion of the investigation, OIG
                              determined that the PBGC employee had not accessed the affected user’s computer
                              or any other user accounts. Instead, our review showed that the files that appeared to
                              demonstrate unauthorized access had actually been created and saved as temporary
                              files to the system when the files were accessed by members of the ISSO.




                         12   PBGC Office of inspector general
Significant Audit Efforts are Ongoing
Annual Audits of the PBGC’s Financial Statements
(Project FA-09-64)

The OIG is statutorily required to audit PBGC’s annual financial statements. For FY
2009, we contracted with Clifton Gunderson to audit PBGC’s financial statements and
to complete several other related audits and evaluations. Audit coverage includes
an assessment of internal controls across the Corporation, to include all financially
significant systems. As of September 30, 2009 the ongoing audits are confirming the
persistence of many significant information technology (IT) weaknesses that have
been reported in previous years. Additionally, new and potentially more serious issues
have come to light and will be reported during our next semiannual reporting period.

As of September 30, 2009, this audit was in progress but drawing to a close.
Subsequent to the end of the reporting period, in November 2009, the OIG issued
opinions and reports relating to the audit of PBGC’s financial statements. While we
expected the opinion on the financial statements to be unqualified, the opinion on
internal control was not likely to be favorable, based on significant IT weaknesses
discussed below.

Opinion on the Financial Statements. The objectives of our financial statements
audit are to provide: (1) an opinion of reasonable assurance as to whether the agency’s
financial statements are presented fairly in all material respects; (2) an opinion on
internal control over transaction processing for accurate financial reporting; and (3) an
assessment of compliance with applicable laws and regulations.

Opinion on the Special-Purpose Financial Statements. As part of the financial
statements audit, we also issue an opinion on the Corporation’s special-purpose
financial statements, which directly link PBGC’s audited financial statements to the
                                                                                                  Significant efforts
Financial Report of the United States Government, a document prepared by the
Department of the Treasury and audited by the Government Accountability Office.                  were focused on the
                                                                                                  annual financial
Sensitive Payments Testing. In conjunction with the financial statements audit,
Clifton Gunderson LLP performed testing of sensitive payments, including senior                   statement audit.
level management activities and expenses, such as compensation, travel, perquisites,
preparation of required financial disclosure forms, and PBGC vehicle usage. Results of
this testing are incorporated into financial statements audit reports, as appropriate.

Penetration Testing. In connection with the FY 2009 financial statements audit,
we contracted with Clifton Gunderson to perform IT vulnerability assessment and
penetration testing. This work included social engineering, and external and internal
vulnerability assessments to discover possible weaknesses in PBGC’s logical security
controls and to exploit discovered vulnerabilities. The goal of our assessment was
to determine the degree of control PBGC could expect an attacker to achieve after a
successful penetration. During our assessment, we discovered live hosts residing on
external and internal PBGC networks. We conducted overt and covert vulnerability


                             Semiannual Report Of The Inspector General—September 2009      13
                         assessments on IP addresses in use. We obtained approval prior to exploitation of
                         discovered vulnerabilities to attempt to gain access to sensitive data.

                         On September 10, 2009, we briefed the Corporation on its most serious IT security
                         vulnerabilities. Based on the major issues we identified, we made appropriate
                         recommendations to PBGC management, including the need to ensure that PBGC
                         systems have the most current patches and updates for all systems and to strengthen
                         or harden the configuration of PBGC’s operating systems and applications.

PBGC incorrectly         Assessment of PBGC compliance with FISMA
reported progress
                         During FY 2009, PBGC management reported significant progress in the remediation
 in correcting IT        of IT- related significant deficiencies that had been reported in prior year financial
                         statements audits including weaknesses in entity-wide security program planning
  deficiencies.
                         and management and access controls. Based on PBGC’s representations of significant
                         progress in the areas of entity-wide security we contracted with Clifton Gunderson to
                         conduct an in-depth assessment of PBGC’s compliance with the Federal Information
                         Security Management Act (FISMA). FISMA requires each federal agency to develop,
                         document, and implement an agency-wide program to provide IT security for the
                         information and information systems that support the operations and assets of the
                         agency.

                         While conducting the internal controls testing this year, Clifton Gunderson found
                         that there was little support for much of the progress that had been reported. In
                         fact, though some limited activity had occurred, the number and severity of the
                         deficiencies had worsened.

                         An effective information security program should include accurate Certification and
                         Accreditation (C&A) documentation, effective security awareness training, adequate
                         contingency plan testing, periodic evaluations of IT controls and effective hardware
                         and software. As of September 30, 2009, FISMA testing was still on-going, though we
                         had reported to PBGC numerous IT weaknesses. Some, like the deficiencies in the C&A
                         process, were reported last year and remain virtually unchanged. Others were new.

                         FISMA requires the agency to report in ten specific areas relating to the state of its IT
                         security, and the OIG independently to assess the agency’s IT security assessment.
                         OMB has developed a mandatory template report for consistent reporting across the
                         government. Subsequent to the close of this reporting period, the OIG filed a joint
                         report with PBGC on the current status of PBGC’s IT security to OMB on November 18,
                         2009. We plan to issue a narrative report to PBGC with detail about the findings and
                         recommendations for corrective action.

                         IT Issues Will Impact PBGC’s Preparedness to Face
                         Potential Influx of Pension Plans

                         PBGC’s core missions are to insure certain defined benefit pension plans and,
                         if necessary, terminate those pension plans and provide benefits to the plan


                    14   PBGC Office of inspector general
participants in an effective, efficient, economic, and timely manner.  The recent global
economic downturn has impacted all sectors – e.g., financial, industrial, health care
- and increased the risk of distress occurring in the company-sponsored defined
benefit pension plans that PBGC insures. PBGC may be called upon to address an
unprecedented influx of large defined benefit pension plans if companies can no
longer afford to maintain their pension plans. The state of PBGC’s IT systems puts PBGC
at risk of being unable to timely and efficiently accomplish its mission.

Request from Special Committee on Aging to Evaluate PBGC’s Preparedness
(Project PA-09-05)

At the request of Chairman Herbert Kohl of the Senate Special Committee on Aging,
we initiated an engagement to evaluate PBGC’s readiness to address the potential
increase in workload attributable to changes in the economy. Chairman Kohl asked
OIG to evaluate whether “PBGC management is taking steps to strategically prepare
the corporation for the possible influx of such plans and their participants.”     

To assess PBGC actions to prepare for the possible influx of pension plans with large
numbers of participants in the near future, we are examining:

  1)	the steps PBGC management is taking to prepare for a possible increase in the
     number of terminated plans;
  2)	the extent to which an increase in the number of terminated plans presents
     challenges, if any, for PBGC management in both termination and benefit delivery
     processes;
  3)	the effectiveness of PBGC processes for identifying, prioritizing, and obtaining
     needed resources, such as human capital; and
  4)	the steps PBGC management is taking to ensure continued customer service and                   IT issues impair PBGC’s
     effective Field Benefit Administration offices in the event of termination increases.            ability to prepare

                                                                                                     for possible influx of
We have briefed preliminary observations to both PBGC management and Senator
Kohl’s staff, noting that PBGC had initiated planning efforts to ensure that PBGC’s core            pension participants.
functions – insurance programs and benefits administration – have the necessary
resources (including staff and budget) to address the incoming workload.  A potential
challenge is PBGC’s reliance on contractors to do much of its work, which may be an
advantage if the contracts can be easily modified to expand the workforce. A more
pressing challenge is the serious weakness in IT systems, particularly because the
amount of out-dated equipment may not withstand the stress of processing large
numbers of additional plans and participants.

As part of a new executive-management focus on IT, PBGC is acknowledging the risk of
system failure and moving to develop short-term and long-range plans to address the
risk. As we have moved through this evaluation, we have periodically briefed Congress
and PBGC on our findings. We will report the results of this evaluation, including
findings and recommendations, in the near future.



                              Semiannual Report Of The Inspector General—September 2009        15
                           Congressional Request: Evaluation of Benefits Paid to
                           Minnesota Steelworker Participants
                           (Project PA-09-66)

                           Congressional leaders from Minnesota are concerned about their steelworker
                           constituents who have earned pension benefits based on work at taconite mines in
                           Minnesota. Beginning in 2002, when PBGC terminated and trusteed several Minnesota
                           steelworker pension plans, the pension benefits of thousands of plan participants were
                           reduced. While there were unique circumstances regarding each plan termination,
                           the Minnesota congressional members are concerned about the perceived disparities
                           between pension plan benefits for these steelworkers.

                           At the request of U. S. Senators Amy Klobuchar and Al Franken and U.S. Congressman
                           James Oberstar, we initiated an engagement to evaluate PBGC’s actions in terminating
                           and establishing the benefits of the Minnesota steelworker pension plans to identify
                           potential improvements that PBGC can apply when taking in new plans. Additionally,
                           we have established a dedicated email account: OIGMinnsteelworkerReview@pbgc.gov
                           to allow steelworkers and other interested parties to forward us information they believe
                           is relevant to our review. We expect to report results in the near future.

   OIG will address        Whistleblower Report: Actuarial Toolkit and the Safeguarding of
potential vulnerability
                           Personally-Identifiable Information
                           (Project IT-09-67)
    in system that
                           PBGC pays monthly retirement benefits, up to a guaranteed maximum, to more
maintains personally-
                           than 640,000 retirees in 3,860 pension plans. These benefits are calculated using the
     identifiable          Actuarial Calculation Toolkit (ACT). OIG is currently conducting an audit to address
                           concerns raised by a whistleblower dealing with the protection of Personally Identifiable
    information.
                           Information (PII) in ACT, including determining whether PBGC has taken steps to ensure
                           that ACT meets FISMA requirements and best practices. We expect to report the results
                           of our assessment in the near future.

                           Contract Issues Ignored with Negative Consequences

                           As OIG has previously reported, the Certification and Accreditation (C&A) process
                           comprises a continuing serious IT weaknesses. The OIG audited the contract of a firm
                           that was procured by PBGC to provide IT systems security services, including the
                           development of an effective C&A process for PBGC systems.  The contact value was
                           almost $3 million, of which the contractor had billed $1.3 million at the time of our
                           audit. We reported in a prior semiannual report that some contract employees did not
                           have the levels of experience for which PBGC was paying, as specified in the contract.
                           For example, we found that PBGC had paid the contractor for a subject matter expert,
                           based on that individual having at least 8 years total experience with 5 years of specific
                           technical experience. Nevertheless, the individual’s resume showed only 2 years total
                           experience and no specialized experience at all.

                           After the issuance of our report, the Contracting Officer’s Technical Representative
                           (COTR) concluded that the contractor was performing successfully, despite the provision

                      16   PBGC Office of inspector general
of employees who did not meet the minimum experience requirement. Based
on the COTR’s undocumented assessment, the PBGC Procurement Department
decided to pursue recovery of only 10% of the amount paid for employees who
did not have the required experience. Our continuing findings in the area of
PBGC’s C&A process demonstrate the negative impact of this decision.


PBGC Incorrectly Reported Taking Corrective
Actions on Some Issues Reported by OIG.

In various areas within the Corporation we found that PBGC’s reports to the OIG
of corrective action were sometimes unfounded.

PBGC Incorrectly Reported Taking Action in Response to a Security Breach

In our prior Semiannual Report to Congress, we described our investigation
of a breach of security incident in which a PBGC contractor failed to protect
personally-identifiable information (PII). Unencrypted data on a thumb drive
that was left on a commuter train included the names, social security numbers,
and birthdates of more than 1300 plan participants in a pension plan, together
with the Employer Identification Numbers of many other pension plans. In
its response to the PBGC Board and to Congress, PBGC addressed this issue
specifically, stating in part “It should be noted that PBGC takes its duty to protect
PII very seriously and, as a result of this incident, PBGC sent PBGC IT security
personnel to the contractor’s facility to provide additional IT security
training to contractor personnel and re-emphasize the importance of
following proper security and sensitive information handling procedures”
[emphasis added].  

Our subsequent review showed that PBGC did not do what it had reported                       PBGC is now working
doing. That is, no trips were taken to the contractor’s facility and no additional
                                                                                                to address the
IT security training was provided. PBGC has acknowledged that neither the
additional training nor planned visits to scan contractors’ computers had taken              previously identified
place. In response, subsequent to this reporting period, PBGC reported it took
                                                                                               security breach.
the following actions:

  •	 Visiting each actuarial contractor in December 2009 and determining that the
     original intention to scan computers was not achievable.
  •	 Conducting physical security surveys to which PBGC believes the contractors
     have responded appropriately.
  •	 Deciding that additional training was not necessary, based on PBGC’s belief
     that the current security training sufficiently covered the above security
     breach.
  •	 Providing routine annual security training, consisting of power point slides,
     subsequent to the reporting period (primarily in December 2009 and early



                       Semiannual Report Of The Inspector General—September 2009        17
                                January 2010) and acknowledged by the employees performing PBGC work at all
                                three actuarial contractors.
                              •	 Making a commitment to either revise the existing Memorandums of Understanding
                                 with actuarial contractors or modify the existing contracts with the actuarial firms to
                                 reflect needed changes.


                            We believe that additional live training is warranted for a contractor whose employees
                            have violated security procedures and compromised PII. For actuarial contractors outside
                            the Washington DC area, including the individual who lost the PII on the commuter train,
                            training consisted of written materials and a certification that the individual read them.
                            That is, the training was not live; no instructor was available to answer questions or
                            emphasize important aspects of the training.

                            The OIG notes that all federal and contractor employees who work in the Washington
                            DC headquarters were required to attend live training in which security personnel
                            emphasized the information contained in the power point slides. Moreover, PBGC
                            periodically provides live information security training to contractor employees in its
                            field benefit administration offices. We recommend that the actuarial contractors receive
                            periodic live training, rather than written, because of the importance of this subject and
                            so that clarity can be given for any questions that come up. This would also provide
                            consistency with how other remote contractors receive their security training.

OIG re-opened audit         PBGC Incorrectly Reported Actions Taken in Response to Audit
                            Recommendations.
 recommendations
                            During August 2009, OIG became aware of differences between some reported
 after finding PBGC
                            corrective actions and official PBGC documentation. In each instance, PBGC had
did not actually take       certified implementation of the audit recommendation and provided documentation
                            that appeared to be excerpts from the PBGC Procurement Department Standard
corrective actions it
                            Operating Procedures.  The information provided was not marked “draft” nor were there
  reported taking.          any indications that what was being provided was provisional in any way. Both the
                            implementing manager and the Department Director had certified that “the information
                            on this form and applicable attachments is current, accurate, and complete.”  However,
                            our review showed that the documents provided to demonstrate corrective action
                            were not actually included in PBGC’s procedures. That is, PBGC did not actually take the
                            actions it reported to OIG. We interviewed the Chief Management Officer, the Acting
                            Director of Procurement, the former Director of Procurement and the responsible
                            division chief. None provided an explanation of how the incorrect information came to
                            be reported. Examples of the incorrect reporting include:

                              •	 A long-standing recommendation to develop and implement a policy addressing the
                                 lack of documentation to support certain unliquidated balances was first reported
                                 in FY 2005, in the management letter for the FY 2004 financial statement audit. As
                                 reflected in that report, PBGC agreed with the finding and committed to appropriate
                                 corrective action. The finding and recommendation were repeated in audit reports
                                 issued in FY 2006, FY 2007, FY 2008, and FY 2009. PBGC reported actions taken and
                                 supporting documentation that included a 32-page Standard Operating Procedure.


                      18   PBGC Office of inspector general
   Both the implementing manager and the Department Director certified that
   the reported corrective actions “were approved, are in place, and are effective.”  
   Based on the materials and certifications provided, OIG agreed to closure of this
   recommendation. However, our subsequent review showed that the written
   procedures provided to OIG were not actually incorporated into the Standard
   Operating Procedure. As a result, we reopened the recommendation.
 •	 Our FY 2005 audit of contract monitoring activities included recommendations
    designed to improve contract monitoring functions and procedures. Among
    other issues, the recommendations addressed necessary improvements in status
    reporting, the need to document the acceptance of contract deliverables, and the
    need to establish written operating procedures for contract monitoring duties.
    In response to six of these recommendations, PBGC provided documents and
    certified that the corrective actions “were approved, are in place, and are effective.”  
    During the prior semiannual period, we reviewed the documents provided and
    concluded that the six recommendations and the audit could be closed. However,
    our further review showed that the procedures provided to OIG had not actually
    been included as part of PBGC’s Standard Operating Procedures. As a result, we
    reopened the six recommendations and the associated audit.
  •	 During the prior semiannual period, OIG had agreed to closure of an FY 2005
     audit of procurement activities, including recommendations that PBGC establish
     and document procedures for the retention of advanced planning process
     documentation and for PBGC’s procurement activities. Our review of PBGC’s
     Standard Operating Procedures showed that much of the information reported
     to OIG was not actually included in the document, despite certification by PBGC
     managers. As a result, the recommendations and the associated audit were
     reopened.
  •	 OIG had agreed to closure of an FY 2006 audit of PBGC’s procurement cycle and
     five recommendations, based on documentation provided and certifications                        PBGC management
     made by PBGC management. However, our review of PBGC’s Standard Operating                         should ensure
     Procedures showed the procedures provided to OIG were not actually included,
     notwithstanding the certification by PBGC management. Therefore, we reopened                    proper reporting of
     the recommendations and the associated audit.                                                   corrective actions.

While these examples relate to the activities of PBGC’s procurement department,
our ongoing audit work has disclosed similar examples in other divisions of the
Corporation. For example, PBGC reported making updates to 15 common security
controls in its IT Information Assurance Handbook. However, our review disclosed
that the Handbook had not been updated as reported, and the controls had not been
implemented.

It is important for PBGC management to ensure that corrective actions reported to
OIG, to the Board, and to Congress have actually been implemented as reported. For
the recommendations and audits that have been reopened based on PBGC’s failure to
take action as reported, PBGC should provide OIG with details of their current plans to
address the underlying findings and their proposed corrective actions.




                             Semiannual Report Of The Inspector General—September 2009          19
                           Other OIG Reporting
                           Access to Information

                           Under the Inspector General Act, the Inspector General is to have unfettered access
                           to all agency records, information, or assistance when engaged in an investigation
                           or audit. Whenever access to requested records, information, or assistance is
                           unreasonably refused or not provided, the Inspector General must promptly report
                           the denial to the agency head.

                           During this six month reporting period, the Inspector General’s access to
                           information and assistance was not restricted.

                           Management Decisions

                           The Inspector General is required to report the following about management
                           decisions on audit reports that occurred during this six-month period:

                            •   There are 10 audit reports for which management decisions are pending (see
  OIG closed some               Appendix, page 26-27).

 recommendations            •   There were no significantly revised management decisions.
                            •   While the Inspector General did not agree with certain management decisions,
despite disagreement
                                in some instances OIG deferred to the contracting officer’s decision and agreed
 with PBGC actions.             to close the audit recommendation, based on PBGC’s receipt of settlement
                                payments and the difficulty inherent in any subsequent collection. For
                                recommendations that were closed, notwithstanding the Inspector General’s
                                disagreement, OIG provided detailed written explanations and identified
                                actions to be taken to prevent recurrence of the deficiencies in the future.




                      20   PBGC Office of inspector general
Other Office of Inspector General
Activities
Review of Proposed Statutory and Regulatory Changes
Statutes

A major responsibility of the OIG under the Inspector General Act is the independent
review of PBGC-proposed changes to laws and regulations. There were no significant
PBGC statutory proposals this period.

Regulations

PBGC continues in efforts to streamline its regulations and to improve administration
of the pension insurance program, with a focus on making pension-related information
more accurate, complete and transparent. During the period ending September 30, 2009,
PBGC drafted proposed debt collection regulations to revise its regulation to conform to
various legal requirements for collection of non-tax debts owed to PBGC and strengthen
its debt collection program by adding salary offset, administrative wage garnishment and
other provisions. We reviewed and provided written comments to PBGC.

Congress Remains Concerned About Inspector General
Independence
The OIG continued to communicate about Inspector General independence through
meetings with staff persons of multiple congressional committees and individual
Members. H.R. 855, a bill which would change the appointment process of the
Inspectors General at five independent federal entities from agency-head appointed to              We continue to work
Presidentially-appointed and Senate-confirmed, passed the House on June 8, 2009. A
similar bill, S. 1354, was thereafter introduced in the Senate and referred to the Homeland   with Congress to identify
Security and Governmental Affairs Committee (HSGAC).  PBGC was one of the five                     ways of enhancing
agencies named in the bill, along with the Board of Governors of the Federal Reserve,
Commodities Futures Trading Commission, National Credit Union Administration, and                   Inspector General
the Securities and Exchange Commission. These five Inspectors General submitted joint                independence.
letters to the Chairman and the Ranking Member of the HSGAC expressing their concerns
that their independence would not be enhanced by the bills but, to the contrary, might be
diminished.

We continue to meet with Congressional staff to develop proposals to positively impact
Inspector General independence.




                              Semiannual Report Of The Inspector General—September 2009       21
                         Other Activities
                         Privacy Act System of Records Established for Investigative Files

                         With the expert assistance and execution of PBGC’s Office of the General Counsel and
                         the Legislative and Regulatory Department, the OIG developed a system of records,
                         published required notifications in the Federal Register for public comment, and issued
                         a final rule on June 8, 2009 (74 Fed. Reg. 27980). The OIG investigative program had
                         outgrown its filing system by subject matter and was moving to an electronic records
  Investigative          system in which records could be retrieved by names and other personally-identifiable
                         information (PII). In order to maintain files that are retrieved by PII, the Privacy Act
system of records
                         requires agencies to announce such a system of records and disclose whether those
was published in         records are exempt from provisions of the Privacy Act. In that Act, information
                         gathered to carry out law enforcement, such as the OIG’s mission to investigate
Federal Register.        criminal, civil and administrative matters, is generally protected from disclosure.

                         External and Internal Professional Activities

                         Various staff members participated in external and internal professional activities.
                         Examples include:

                           •  The IG participates in the new consolidated Council of Inspectors General for
                              Integrity and Efficiency (CIGIE) that promotes collaboration on integrity, economy,
                              and efficiency issues that transcend individual agencies. Ms. Batts serves as the co-
                              chair of the CIGIE Information Technology Committee and as a member of the Audit
                              Committee. She also serves as the CIGIE delegate to the Chief Financial Officer’s
                              Council. In the Federal Financial Regulatory Inspectors General group, she joins
                              with other IGs to discuss common financial concerns and the work each is doing.
                           •	 The Assistant IG for Audits serves on  the Accounting and Audit Policy Committee
                              (AAPC) which is a permanent committee established by the Federal Accounting
                              Standards Advisory Board. Federal accounting standards and financial reporting
                              play a major role in fulfilling the government’s duty to be publicly accountable. The
                              AAPC issues technical releases related to existing Federal accounting standards.
                              AAPC’s technical releases are a form of authoritative guidance for generally
                              accepted accounting principles for Federal entities.
                           •	 The IG and the Assistant IG for Audit participated in a roundtable at the AAPC to
                              provide views on the use of generally accepted accounting principles (GAAP) as
                              used by the public sector.
                           •	 The Assistant IG for Investigations continues to serve as a non-voting member
                              of PBGC’s Internal Control Committee, providing insight gained through his
                              experience as a criminal investigator to those responsible for oversight and
                              accountability of PBGC internal controls. Effective control systems may detect fraud
                              or deliberate non-compliance with policies, regulations, or laws.
                           •	 The Special-Agent-in-Charge participates in the National Procurement Fraud Task
                              Force sponsored by the U.S. Department of Justice.
                           •	 The IG and the Deputy IG  are mentoring non-OIG staff as part of PBGC’s intentional
                              mentoring programs.

                    22   PBGC Office of inspector general
Appendix
CROSS-REFERENCE TO REPORTING REQUIREMENTS
OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the Inspector General Act of 1978, as
amended, to the specific pages in the report where they are addressed.

Inspector General
Act Reference	         Reporting Requirements	                              Page
Section 4(a)(2)	       Review of legislation and regulations.	              21
Section 5(a)(1)	       Significant problems, abuses, and deficiencies.	     5-20
Section 5(a)(2)	       Recommendations with respect to significant 	        5-20
	                      problems, abuses, and deficiencies.	
Section 5(a)(3)	       Prior significant recommendations on which	          28-29
	                      corrective action has not been completed.	
Section 5(a)(4)	       Matters referred to prosecutorial authorities.	      12, 24
Section 5(a)(5)	       Summary of instances in which information 	          20
	                      was refused.	
Section 5(a)(6)	       List of audit reports by subject matter, showing 	 25
	                      dollar value of questioned costs and
	                      recommendations that funds be put to better use.	
Section 5(a)(7)	       Summary of each particularly significant report. 	   5-20
Section 5(a)(8)	       Statistical table showing number of reports and 	    25
	                      dollar value of questioned costs.	
Section 5(a)(9)	       Statistical table showing number of reports and 	    25
	                      dollar value of recommendations that funds be
	                      put to better use.	
Section 5(a)(10)	      Summary of each audit report issued before this 	 26-27
	                      reporting period for which no management
	                      decision was made by end of the reporting period.	
Section 5(a)(11)	      Significant revised management decisions.	           20
Section 5(a)(12)	      Significant management decisions with which 	        20
	                      the Inspector General disagrees.	
		




                                              Semiannual Report Of The Inspector General—September 2009    23
SUMMARY OF AUDIT AND INVESTIGATIVE ACTIVITIES
For the Six-Month Period Ending September 30, 2009

Audit Reports Issued
	Number of Reports	                                                3
	Number of Recommendations	                                       19
Management Decisions
	  Open Recommendations Beginning of Period	                     131
	  Opened this Period	                                            19
	  Re-Opened this Period	                                         15
	  Closed This Period	                                            22
	  Open Recommendations End of Period	                           143

	   Reports with Open Recommendations End of Period	              36
Investigations
	   Pending Beginning of Period	                                  17
	   Opened	                                                       15
	   Closed	                                                       17
	   Pending End of Period	                                        15
Complaints1
	  Pending Beginning of Period	                                   20
	  Opened	                                                        45
	  Closed	                                                        58
	  Pending End of Period	                                          7
Financial Recoveries2
	   Theft of Funds Recovered	                               $10,946
	   Court Ordered Fines, Penalties, and Restitution	             $0
	   U.S. Government Property Recovered	                          $0
Criminal Actions2
	   Arrests	                                                       1
	   Indictments	                                                   0
	   Convictions	                                                   0

Administrative Actions2	                                           0
	

Referrals
	For Prosecution:
		 Department of Justice	                                          6
		         Accepted	                                               4
		 Various States’ Attorney Offices	                               1
		         Declined	                                               1
	For Other Action:
		        PBGC Management for Corrective Action	                   1

     1
      Complaints include allegations received through the hotline operation and issues resulting from proactive
       investigative efforts.
     2
      Results reported for Financial Recoveries, Criminal, and Administrative Actions include both open and closed cases.


                     24         PBGC Office of inspector general
RESULTS OF REPORTS ISSUED
For the Six-Month Period Ending September 30, 2009
                                                             Number         Questioned    Unsupported      Funds Put to
                                                            of Reports            Costs      Costs          Better Use
 A. For which no management decision had                             8       $1,911,808           $4,241             $0
    been made by the commencement of the
    reporting period.
 B. Which were issued during the reporting period.                   3
      Former Director’s Involvment in Contracting for                                $0               $0             $0
        Investment Services Blurs Roles and Raises
        Fairness Issues, 2009-5/PA-08-63-1 (5/15/09)
      Evaluation of PBGC’ Activities With Respect to                                 $0               $0             $0
        its Securities Lending Program, 2009-6/FA-
        08-51 (7/9/09)
      Zimmerman Associates, Inc Agreed-Upon
        Procedures to Verify Contract Personnel                                      $0               $0             $0
        Qualifications, 2009-7/CA-08-53 (9/25/09)
 Previously Closed and Re-opened during the
                                                                     3
    period
                                                                                     $0               $0             $0
      Audit of Procurement Activities Related to
        Award of Morneau Sobeco Contracts, 2005-
        18/CA-0008-1 (9/29/05)
      Audit of Costs Claimed by Morneau Sobeco,
        2005-19/CA-0008-2 (9/25/05)
      Procurement Cycle Performance Audit, 2006-9/
         CA-0010 (3/16/06)
                                                                     6
 Total



        Subtotal (Add A. & B.)                                     14        $1,911,808           $4,241             $0

 C. For which a management decision was made                         4       $1,224,848           $4,241             $0
    during the reporting period.

        (i) dollar value of disallowed costs                                    $76,852               $0             $0

        (ii) dollar value of costs not disallowed                            $1,147,996           $4,241             $0

 D. For which no management decision had been                      10         $686,960                $0             $0
    made by the end of the reporting period.
 E.	For which no management decision was made                      10         $686,960                $0             $0
    within six months of issuance.
 1
     Unsupported costs are a subset of questioned costs.




                                                    Semiannual Report Of The Inspector General—September 2009       25
SUMMARY OF REPORTS OLDER THAN SIX MONTHS FOR WHICH
MANAGEMENT DECISION HAS NOT BEEN ACHIEVED

                                                                                                  Anticipated
 Report and Summary                                      Reason For No Management Decision        Management
                                                                                                   Decision
 FY 2004 Financial Statement Management Letter,          This report was re-opened on August       2/28/2010
   2005-10/ 23182-6 (3/21/05)                            21, 2009, based on OIG’s discovery
                                                         that PBGC had incorrectly reported the
                                                         establishment of Standard Operating
Establish and document detailed policies and             Procedures that implemented OIG
procedures regarding deobligation of funds.              recommendations.

 Procurement Activities Related to Award of                                                        2/28/2010
   Morneau Sobeco Contracts, 2005-18/CA-0008-1           This report was re-opened on August
   (9/29/05)                                             21, 2009, based on OIG’s discovery
                                                         that PBGC had incorrectly reported the
Establish and document detailed policies and             establishment of Standard Operating
procedures for procurement activities, including         Procedures that implemented OIG
duties of Contracting Officer, Contract Specialist and   recommendations.
Competition Advocate..

 Costs Claimed by Morneau Sobeco, 2005-19/CA-                                                     2/28/2010
   0008-2 (9/29/05)                                      This report was re-opened on August
                                                         21, 2009, based on OIG’s discovery
COTR should document actions, including invoice          that PBGC had incorrectly reported the
review and acceptance of deliverables, and ensure        establishment of Standard Operating
contractor complies with contract requirements.          Procedures that implemented OIG
                                                         recommendations.


 Procurement Cycle Performance Audit, 2006-9/CA- This report was re-opened on August               2/28/2010
    0010 (3/16/06)                               21, 2009, based on OIG’s discovery
                                                 that PBGC had incorrectly reported the
Establish and document detailed policies and     establishment of Standard Operating
procedures of procurement activities.            Procedures that implemented OIG
                                                 recommendations.

 Examination of Contract Termination Proposal,           Management continues to review this       2/28/2010
   2006-14/CA-0013 (9/29/06)                             report.


Questioned Costs of $197,035 because the contractor
did not effectively manage its employees and allowed
idle time to be billed as a direct expense.




                      26     PBGC Office of inspector general
SUMMARY OF REPORTS OLDER THAN SIX MONTHS FOR WHICH
MANAGEMENT DECISION HAS NOT BEEN ACHIEVED

                                                                                                Anticipated
 Report and Summary                                     Reason For No Management Decision       Management
                                                                                                 Decision
 Incurred Cost Audit, 2006-16/CA-0013 (9/27/06)         Management continues to review this      2/28/2010
                                                        report.
Questioned Costs of $146,628 for unallowable
costs associated with the use of the actual indirect
rates instead of the forward pricing indirect rates;
unallowable facility costs; and unsupported purchased
labor costs.

 Incurred Cost Audit, 2007-13/CA-0038-1 (9/27/07)       Management continues to review            6/30/2010
     and                                                these reports involving the same
                                                        contractor.
 Incurred Cost Audit, 2007-14/CA-0038-2 (9/27/07)


Implementation of corrective actions with contractor
needed to prevent unsupported and erroneous
documentation for labor hour billings; erroneous and
unapproved billings; and unverified education and
experience for contractor employees.

 Incurred Cost Audit, 2007-15/CA-0039 (9/27/07)         Management continues to review this       2/28/2010
                                                        report.

Questioned Costs of $245,716 related to unsupported
costs; erroneous and unapproved billings; and
unverified education and experience for contractor
employees.

 Incurred Cost Audit, 2008-09/CA-0054 (9/30/2008)       Management decision is pending            3/30/2010
                                                        as it awaits DCAA’s completion of its
                                                        incurred cost audit and settlement of
Questioned Costs of $97,581 for unallowable costs       indirect cost rates.
associated with the use of unaudited indirect cost
rates.




                                              Semiannual Report Of The Inspector General—September 2009       27
PREVIOUSLY REPORTED SIGNIFICANT RECOMMENDATIONS
FOR WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED

                                      Number of
Report Number, Report Title and                                Significant Problems Summary of Significant
                                      Significant
Date Issued                                                    and Deficiencies     Recommendations
                                      Recommendations
96-4/23093-2                                                   Significant             PBGC needs to complete the
Audit of the Pension Benefit                                   Deficiency:             integration of its financial
Guaranty Corporation’s Fiscal                                  Integrating             management systems.
Year 1995 Financial Statements                                 Financial
03/13/1996                                                     Management
and                                                            Systems
                                               1
AUD-2008-2/ FA-09-0034-2
Limited Disclosure Report on
Internal Controls - PBGC’s FY 2007
and 2006 Financial Statements Audit
11/15/2007

2003-3/23168-2                                                 Signficant              PBGC needs to complete its
Audit of the Pension Benefit                                   Deficiency:             efforts to fully implement
Guaranty Corporation’s Fiscal Years                            Entity-Wide             and enforce an effective
2002 - 2001 Financial Statements                               Information             information security program.
01/30/2003                                                     Security Program
     and                                                       Planning &
                                               2
AUD-2008-2/ FA-09-0034-2                                       Management
Limited Disclosure Report on
Internal Controls - PBGC’s FY 2007
and 2006 Financial Statements Audit
11/15/2007

2003-10/23177-2                                                Control weaknesses      PBGC needs to ensure that its
Review of PBGC’s Premium                                       undermine the           automated system produces
Accounting System                                              quality and integrity   accurate and verifiable
                                               3
10/10/2003                                                     of reported             premium accounting data.
                                                               premium revenues.

2008-1/FA-0034-1                                               Significant             PBGC needs to mitigate the
Audit of the Pension Benefit                                   Deficiency:             systemic issues related to
Guaranty Corporation’s Fiscal Years                            Access Contols          information access controls.
2007 - 2006 Financial Statements
11/15/2007
      and
                                               11
AUD-2008-2/ FA-09-0034-2
Limited Disclosure Report on
Internal Controls - PBGC’s FY 2007
and 2006 Financial Statements Audit
11/15/2007



                    28      PBGC Office of inspector general
PREVIOUSLY REPORTED SIGNIFICANT RECOMMENDATIONS
FOR WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED

                                        Number of
Report Number, Report Title and                                Significant Problems Summary of Significant
                                        Significant
Date Issued                                                    and Deficiencies     Recommendations
                                        Recommendations
AUD-2009-01/FA-08-49-1                                         Significant            PBGC needs to complete the
Audit of the Pension Benefit                                   Deficiency:            design, implementation and
Guaranty Corporation’s Fiscal Years                            Entity-Wide            testing of security controls,
2008 and 2007 Financial Statements                             Information Security   implement an effective
11/13/2008                                                     Program & Planning     certification and review
    and                                           5            Management             process, and correct identified
AUD-2009-02/FA-08-49-2                                                                access control vulnerabilities.
Limited Disclosure Report on
Internal Controls – PBGC’s FY 2008
and 2007 Financial Statements
11/13/09




This chart complies with Section 5(a)(1), (2) and (3) of the Inspector General Act of 1978, as amended.




                                              Semiannual Report Of The Inspector General—September 2009          29
